Memorandum from the Office of the Inspector General



September 29, 2006

Thomas D. Cosby, LP 6A-C

FINAL REPORT – INSPECTION 2006-519I – CONCERNS RESOLUTION PROGRAM –
BROWNS FERRY NUCLEAR PLANT 2006



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Senior Auditor, at
(423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
at (423) 751-7821. We appreciate the courtesy and cooperation received from your
staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MAD:BKA
Attachment
cc (Attachment):
     Masoud Bajestani, NAB 1A-BFN
     Ashok S. Bhatnagar, LP 6A-C
     Peyton T. Hairston, Jr., WT 7C-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Raymond L. Newby, BR 3B-C
     Brian J. O’Grady, PAB 1E-BFN
     Karl W. Singer, LP 6A-C
     Preston D. Swafford, LP 6A-C
     OIG File No. 2006-519I
                        Tennessee Valley Authority
                        Office of the Inspector General


Inspection Report


CONCERNS
RESOLUTION
PROGRAM -
BROWNS FERRY
NUCLEAR PLANT 2006


Inspection Team                               2006-519I
Michael A. Driver                     September 29, 2006
Deana D. Garrison
Stephanie L. O'Daniel
Michael R. Patty
James A. Piercy
Office of the Inspector General                                                        Inspection Report


SYNOPSIS
At the request of Tennessee Valley Authority Nuclear (TVAN) management, we
assessed the willingness of Tennessee Valley Authority (TVA) Browns Ferry
Nuclear Plant (BFN) employees and contractors to report nuclear safety and
quality issues through various avenues, including TVAN’s Concerns Resolution
Program (CRP). The responses we received generally compared favorably to
the responses we received from the TVAN workforce (i.e., TVA employees and
contractors with unescorted access to TVA’s nuclear facilities).


BACKGROUND
TVAN’s CRP was designed to help ensure all TVA employees and contractors
supporting TVAN "are free to express safety issues, concerns, or differing
views to TVAN management without fear of reprisal, and all such concerns
and issues are investigated and resolved in a timely manner."

TVAN's Concerns Resolution Staff (CRS), which is responsible for
implementing the CRP, "provides an alternate avenue for the resolution of
differing views and opinions related to the safe operation of TVAN plants."
While the primary responsibility of the CRS is the resolution of nuclear safety
and quality issues, other issues may be handled by the CRS at the discretion
of TVA management and the applicable CRS site representative.

Larger managed task contractors have an Employee Concerns Program
(ECP), a program for contractor employees with a mission analogous to the
CRS mission for BFN employees.1 While contractor employees are
encouraged to use the ECP, these employees may also express concerns or
issues directly to the CRS. The ECPs are subject to CRS' oversight.

In 1986, TVA committed to the Nuclear Regulatory Commission (NRC) that
TVA's Office of the Inspector General would periodically review the CRP.
Since 1994, we have assessed program effectiveness using a standardized
approach of (1) surveying TVAN’s workforce and (2) reviewing closed case
files. These measures enable us to compare and trend survey results. Our
previous review was issued in August 2004.

Based upon recent Cultural Health Index surveys, we were asked to perform a
review of BFN as a whole in addition to the TVAN review. The BFN review
includes both TVA employees and contractors.



1
    At the time of our review, Stone & Webster Construction, Inc., and Bechtel Corporation were the TVA
    contractors that had an ECP at TVA.
Inspection 2006-519I                                                                              Page 1
Office of the Inspector General                                                         Inspection Report

The results of our most recent assessment of TVAN overall are reported in
Inspection 2006-518I. In this analysis, we used the same structured approach
as we used for TVAN to evaluate BFN employees’ and contractors’ willingness
to report issues.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess the willingness of the BFN employees and
contractors to report nuclear safety and quality issues. To achieve our
objective, we:

•     Randomly selected and interviewed 363 of the 4,094 BFN employees and
      contractors who had badge access to BFN as of May 24, 2006. Our
      objective was to determine to what extent TVA employees and contractors
      were willing to report nuclear safety and quality issues. Our sample size
      allowed us to achieve a 95 percent confidence level. We set our error rate
      at 31 percent.2
•     Used responses that were complete and quantifiable for each question to
      calculate the percentages used in this report. Not all of the respondents
      answered each question in a quantifiable manner. We also requested
      each interviewee to complete an anonymous feedback form, thus giving
      the surveyed employees another opportunity to provide additional
      information about the program or any other concerns.
•     Compared the BFN responses to those of the TVAN workforce. The
      overall assessment included interviews with 335 TVAN employees and
      contractors.

We performed this inspection in accordance with the “Quality Standards for
Inspections.”


FINDINGS
Our survey results indicated BFN employees and contractors are willing to
report nuclear safety and quality issues through some avenue and generally
have confidence in the CRP or their ECP. The responses we received
generally compared favorably with the responses in our overall assessment
(see Appendix).


2
    We determined the error rate by using the greatest number of negative responses to any single critical
    question in the 2004 TVAN CRP review. In this case, question 17 of the 2004 TVAN employee survey
    had 31 percent of respondents answering in the negative.
Inspection 2006-519I                                                                                Page 2
Office of the Inspector General                                    Inspection Report

Specifically:

•   99 percent of BFN employees and 99.2 percent of the BFN contractors
    said they would report nuclear safety or quality problems through some
    avenue as compared to 98.8 percent of the TVAN workforce.
•   100 percent of BFN employees and 89.5 percent of contractors were aware
    that either TVA CRS or their ECP existed for reporting employee concerns,
    as compared to 96.4 percent of the TVAN workforce. Of the contractors
    who had their own ECP, 95.6 percent knew that TVA had a CRS for
    reporting employee concerns.
•   90.4 percent of BFN employees and 89.9 percent of contractors would
    report nuclear safety or quality problems to CRS or their ECP. Of the
    contractors who had their own ECP, 86.8 percent would report a nuclear
    safety or quality problem to TVA CRS.
•   88.6 percent of BFN employees and 89.14 percent of BFN contractor
    employees who were aware of their respective programs felt free to raise
    intimidation and harassment concerns to either the CRS or ECP.
•   94.3 percent of BFN employees and 95.7 percent of BFN contractors would
    report a problem unrelated to nuclear safety or quality to their supervisors.
•   74.3 percent of BFN employees and 83.7 percent of contractors felt free to
    express an unpopular view without hurting their careers as compared to
    83.6 percent of the TVAN workforce. Of those who said they would not,
    the prevailing sentiment was that they feared management retaliation.
•   54.3 percent of BFN employees and 57.4 percent of BFN contractors
    believed site problems were being resolved, either very good or good, as
    compared to 58.8 percent of the TVAN workforce.

•   56.2 percent of BFN employees and 63.9 percent of BFN contractors
    believed the Problem Evaluation Report (PER)/Corrective Action Program
    is an effective mechanism for correcting issues as compared to
    59.4 percent of the TVAN workforce. We asked BFN employees and
    contractors to explain negative responses. Several people stated that
    PERs were written for frivolous or trivial issues, while others stated PERs
    could be used, in some instances, by management as a mechanism for
    retaliation.




Inspection 2006-519I                                                          Page 3
                                                                                                      APPENDIX
                                                                                                      Page 1 of 3

                                SUMMARY OF SURVEY RESPONSES
                              COMPARISON OF BROWNS FERRY (BFN)
                              AND TVA NUCLEAR (TVAN) WORKFORCE

                                                                                     BFN 2006             TVAN 2006
    TVAN employees interviewed                                                         105                   181
    Contractor employees interviewed                                                   258                   154
    Total interviewed                                                                    363                  335


                                                                                       Affirmative Response Results1
                                                                                                (Percentages)

                                                                                     BFN 2006             TVAN 2006
    1. Would report a nuclear safety or quality problem
                TVA Employees                                                             99                  99.4
                Contractor Employees                                                     99.2                 98.1
                Total - TVA and Contractor Employees                                    99.17                 98.8

    2. Would report a nuclear safety or quality problem to supervisor
                TVA Employees                                                           100                   99.4
                Contractor Employees                                                    98.8                  97.4
                Total - TVA and Contractor Employees                                    99.2                  98.5

    3. Have reported a nuclear safety or quality problem to supervisor
                TVA Employees                                                           54.1                  50.3
                Contractor Employees                                                    37.1                  41.5
                Total - TVA and Contractor Employees                                    42.1                  46.3

    4. Aware that TVA has a Concerns Resolution Staff (CRS) for
       reporting employee concerns
                 TVA Employees                                                          100                   98.3
                 Contractor Employees (Total)                                           89.5                  94.1
                 Contractors with ECP                                                   95.6                  93.9
                 Total - TVA and Contractor Employees                                   92.6                  96.4

    5. Contractor employees aware they have an Employee Concerns
       Program (ECP) for reporting employee concerns
                TVA Employees                                                            --                   --
                Contractor Employees with ECP                                           87.6                  93
                Total - TVA and Contractor Employees                                    87.6                  93




1
    The affirmative response percentages were calculated by dividing the ‘yes’ answers by the sum of all answers.
                                                                                                APPENDIX
                                                                                                Page 2 of 3

                                SUMMARY OF SURVEY RESPONSES
                              COMPARISON OF BROWNS FERRY (BFN)
                              AND TVA NUCLEAR (TVAN) WORKFORCE

                                                                                   BFN 2006         TVAN 2006
    6. Would report nuclear safety or quality problems to CRS/ECP2
                TVA Employees                                                         90.4              88.9
                Contractor Employees                                                  89.9              89.6
                Total - TVA and Contractor Employees                                  90.1              89.2

    7. Would report nuclear safety or quality problems to CRS2
                TVA Employees                                                          --                --
                Contractor Employees with ECP                                         86.8              80.9

    8. Would feel free to report Intimidation and Harassment concerns to
                2
       CRS/ECP
                TVA Employees                                                         88.6              89.5
                Contractor Employees                                                  89.1              85.7
                Total - TVA and Contractor Employees                                  88.9              87.8

    9. Would not report Intimidation and Harassment concerns to
       CRS/ECP for negative reasons2
                TVA Employees                                                         8.6               7.7
                Contractor Employees                                                  6.9               7.1
                Total - TVA and Contractor Employees                                  7.4               7.4

    10. Believe CRS/ECP is ineffective2
                TVA Employees                                                         2.9               3.9
                Contractor Employees                                                  3.5               4.5
                Total - TVA and Contractor Employees                                  3.3               4.2

    11. Believe problems are being resolved very well or well
                 TVA Employees                                                        54.3              58.6
                 Contractor Employees                                                 57.4              59.1
                 Total - TVA and Contractor Employees                                 56.5              58.8

    12. Believe the primary purpose of the CRS/ECP is to provide an
        alternate or additional path2
                 TVA Employees                                                        44.8              46.4
                 Contractor Employees                                                  5.4              27.2
                 Total - TVA and Contractor Employees                                 16.8              29.6

    13. Believe the primary purpose of the CRS/ECP is to provide an
        avenue for addressing nuclear safety concerns2
                TVA Employees                                                         13.3              22.6
                Contractor Employees                                                   5.8              23.4
                Total - TVA and Contractor Employees                                   7.9              22.9


2
    These questions were asked only to employees who were aware TVA had a CRS or that their employer had an
    ECP.
                                                                                                      APPENDIX
                                                                                                      Page 3 of 3

                                SUMMARY OF SURVEY RESPONSES
                              COMPARISON OF BROWNS FERRY (BFN)
                              AND TVA NUCLEAR (TVAN) WORKFORCE

                                                                                        BFN 2006          TVAN 2006
    14. Would report problem unrelated to nuclear safety/quality to
        supervisor
                TVA Employees                                                              94.3               94.5
                Contractor Employees                                                       95.7               93.5
                Total - TVA and Contractor Employees                                       95.3                94

    15. Would feel free to express unpopular view without hurting career
                TVA Employees                                                              74.3               81.2
                Contractor Employees                                                       83.7               86.4
                Total - TVA and Contractor Employees                                       80.9               83.6

    16. Have initiated a problem evaluation report (PER) within last two years
                 TVA Employees                                                             57.1               66.3
                 Contractor Employees                                                      28.3               22.7
                 Total - TVA and Contractor Employees                                      36.6               49.3

    17. Believe the PER/Corrective Action Program is effective in
        correcting issues3
                 TVA Employees                                                             56.1               60.2
                 Contractor Employees                                                      63.9               59.1
                 Total - TVA and Contractor Employees                                      61.7               59.4




3
    The affirmative response percentages reflect only those interviewees who had an opinion or direct knowledge of the
    effectiveness of the PER/Corrective Action Program.
